<html>
<title> - NOMINATION OF BRIAN T. BAENIG, OF THE DISTRICT OF COLUMBIA, TO BE AN ASSISTANT SECRETARY OF AGRICULTURE, U.S. DEPARTMENT OF AGRICULTURE</title>
<body><pre>[Senate Hearing 112-285]
[From the U.S. Government Publishing Office]



                                                        S. Hrg. 112-285
 
                     NOMINATION OF BRIAN T. BAENIG,
                      OF THE DISTRICT OF COLUMBIA,
                    TO BE AN ASSISTANT SECRETARY OF
              AGRICULTURE, U.S. DEPARTMENT OF AGRICULTURE

=======================================================================

                                HEARING

                               before the

                       COMMITTEE ON AGRICULTURE,
                         NUTRITION AND FORESTRY

                          UNITED STATES SENATE


                      ONE HUNDRED TWELFTH CONGRESS

                             FIRST SESSION


                               __________

                             JULY 28, 2011

                               __________

                       Printed for the use of the
            Committee on Agriculture, Nutrition and Forestry


        Available via the World Wide Web: http://www.fdsys.gov/



                  U.S. GOVERNMENT PRINTING OFFICE
71-634                    WASHINGTON : 2012
-----------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Printing Office, 
http://bookstore.gpo.gov. For more information, contact the GPO Customer Contact Center, U.S. Government Printing Office. Phone 202�09512�091800, or 866�09512�091800 (toll-free). E-mail, <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="ed8a9d82ad8e989e998588819dc38e8280c3">[email&#160;protected]</a>  


            COMMITTEE ON AGRICULTURE, NUTRITION AND FORESTRY



                 DEBBIE STABENOW, Michigan, Chairwoman

PATRICK J. LEAHY, Vermont            PAT ROBERTS, Kansas
TOM HARKIN, Iowa                     RICHARD G. LUGAR, Indiana
KENT CONRAD, North Dakota            THAD COCHRAN, Mississippi
MAX BAUCUS, Montana                  MITCH McCONNELL, Kentucky
E. BENJAMIN NELSON, Nebraska         SAXBY CHAMBLISS, Georgia
SHERROD BROWN, Ohio                  MIKE JOHANNS, Nebraska
ROBERT P. CASEY, Jr., Pennsylvania   JOHN BOOZMAN, Arkansas
AMY KLOBUCHAR, Minnesota             CHARLES E. GRASSLEY, Iowa
MICHAEL BENNET, Colorado             JOHN THUNE, South Dakota
KIRSTEN GILLIBRAND, New York         JOHN HOEVEN, North Dakota

             Christopher J. Adamo, Majority Staff Director

              Jonathan W. Coppess, Majority Chief Counsel

                    Jessica L. Williams, Chief Clerk

              Michael J. Seyfert, Minority Staff Director

                Anne C. Hazlett, Minority Chief Counsel

                                  (ii)

  
                            C O N T E N T S

                              ----------                              
                                                                   Page

Hearing(s):

Nomination of Brian T. Baenig, of the District of Columbia, to be 
  an Assistant Secretary of Agriculture, U.S. Department of 
  Agriculture....................................................     1

                              ----------                              

                        Thursday, July 28, 2011
                    STATEMENTS PRESENTED BY SENATORS

Stabenow, Hon. Debbie, U.S. Senator from the State of Michigan, 
  Chairwoman, Committee on Agriculture, Nutrition and Forestry...     1
Roberts, Hon. Pat, U.S. Senator from the State of Kansas.........     8
Leahy, Hon. Patrick J., U.S. Senator from the State of Vermont...     2

                                Witness

Baenig, Brian T., of the District of Columbia, Nominated to be an 
  Assistant Secretary of Agriculture, U.S. Department of 
  Agriculture, Washington, DC....................................     4
                              ----------                              

                                APPENDIX

Prepared Statements:
    Roberts, Hon. Pat............................................    12
    Chambliss, Hon. Saxby........................................    13
    Leahy, Hon. Patrick J........................................    14
    Baenig, Brian T..............................................    16
Document(s) Submitted for the Record:
    Dairy Farmers of America, written letter of support for the 
      nomination of Brian T. Baenig to be an Assistant Secretary 
      of Agriculture, U.S. Department of Agriculture.............    20
    Various Organizations, written letter of support for the 
      nomination of Brian T. Baenig to be an Assistant Secretary 
      of Agriculture, U.S. Department of Agriculture.............    21
Question and Answer:
Roberts, Hon. Pat:
    Written questions to Brian T. Baenig.........................    24
Chambliss, Hon. Saxby:
    Written questions to Brian T. Baenig.........................    25
Klobuchar, Hon. Amy:
    Written questions to Brian T. Baenig.........................    26
Thune, Hon. John:
    Written questions to Brian T. Baenig.........................    26
Baenig, Brian T.:
    Written response to questions from Hon. Pat Roberts..........    24
    Written response to questions from Hon. Amy Klobuchar........    26
    Written response to questions from Hon. Saxby Chambliss......    25
    Written response to questions from Hon. John Thune...........    26



                     NOMINATION OF BRIAN T. BAENIG,
                      OF THE DISTRICT OF COLUMBIA,
                    TO BE AN ASSISTANT SECRETARY OF
              AGRICULTURE, U.S. DEPARTMENT OF AGRICULTURE

                              ----------                              


                        Thursday, July 28, 2011

                              United States Senate,
          Committee on Agriculture, Nutrition and Forestry,
                                                     Washington, DC
    The committee met, pursuant to notice, at 9:32 a.m., in 
Room G-50, Dirksen Senate Office Building, Hon. Debbie 
Stabenow, Chairwoman of the committee, presiding.
    Present or submitting a statement: Senators Stabenow, 
Leahy, Roberts, Lugar, and Thune.

STATEMENT OF HON. DEBBIE STABENOW, U.S. SENATOR FROM THE STATE 
 OF MICHIGAN, CHAIRWOMAN, COMMITTEE ON AGRICULTURE, NUTRITION 
                          AND FORESTRY

    Chairwoman Stabenow. Well, good morning. The Committee on 
Agriculture, Nutrition, and Forestry will now come to order.
    Today, the committee, as first order of business, is going 
to consider the nomination of Brian Baenig to serve as 
Assistant Secretary for Congressional Relations at USDA. 
Welcome. We are so pleased that you are here. Congratulations 
on your nomination, Mr. Baenig. We extend a warm welcome to you 
and your family and friends, including, I understand, your mom 
is here, Linda Baenig, and I am sure she is very, very proud of 
you, and I am sure all of your family and friends are, as well.
    I know I speak for all the members of the committee when we 
say that we take our obligation to advise and consent very 
seriously. We look forward to your remarks and the opportunity 
to exercise our constitutional duties.
    As Mr. Baenig well knows from his years of service in the 
Senate, the Department of Agriculture and this committee have 
an important and special relationship. The position of 
Assistant Secretary for the Office of Congressional Relations 
is very important because, if confirmed, you will be the key 
contact of this committee as we oversee policy and program 
implementation that is critical for agriculture, for jobs, and 
for rural America.
    Mr. Baenig's nomination comes at a very important time, as 
this committee is beginning its farm bill process. The staff at 
USDA will be an indispensable resource for us as we move 
forward. They are the boots on the ground, implementing the 
programs that we have created and will create, so they are able 
to provide valuable feedback on performance.
    The Assistant Secretary of Congressional Relations manages 
these lines of communication, facilitating the timely exchange 
of information. An open and honest relationship between the 
Assistant Secretary and those of us who are on the Hill is 
absolutely essential.
    Mr. Baenig has spent the majority of his career here in the 
Senate, including some time as a staff member of this 
committee, so we welcome you back. He is very familiar with the 
way this body works and the day-to-day challenges we face. I 
hope and trust that, if confirmed, Mr. Baenig will remember his 
time here fondly and be a straightforward and sincere voice at 
the USDA.
    I would like to submit two letters of support for Mr. 
Baenig's nomination. The first is from over 20 different 
agriculture industries and the second is from the Dairy Farmers 
of America. If there are no objections, the letters will be 
inserted into the record.
    [The letters can be found on pages 20 and 21 in the 
appendix.]
    Chairwoman Stabenow. And now I would like to turn for a 
moment to Senator Leahy, who would like to add some words at 
the beginning of our session. Senator Leahy.

STATEMENT OF HON. PATRICK J. LEAHY, U.S. SENATOR FROM THE STATE 
                           OF VERMONT

    Senator Leahy. Thank you, and thank you, Senator Lugar. 
Madam Chairwoman, being here with two excellent Chairs of this 
committee, yourself and Senator Lugar, the three of us have had 
the honor of chairing this committee and we all know the 
nominee well. I do not think the President or Secretary Vilsack 
could have selected a more qualified and practiced professional 
to help lead the Department of Agriculture's Office of 
Congressional Relations than Brian.
    I know how important it is--I will put my whole statement 
in the record, but how important it is to keep the lines of 
communication open. He understands this as well as anybody who 
could ever be in that position. He worked most recently as 
Deputy Staff Director on this committee. He has earned the 
respect of members from both parties and from all regions of 
the country, but what is very important in this area, from all 
segments of the agriculture community and the nutrition 
community and the environmental community and many others.
    Brian, it was an honor to have you on my staff. I always 
wondered about somebody who might have a B.S. in political 
science from St. Michael's College, but then I was reminded 
that is exactly the degree I got from St. Michael's College----
    [Laughter.]
    Senator Leahy. --so I said, well, it worked before. Let us 
see if it might work again.
    [Laughter.]
    Senator Leahy. I know your mother, Linda, is here, and, as 
the Chairwoman mentioned, how proud she must be, and I know how 
proud your father would have been had he been able to be here 
and see this.
    You spent on my staff six years, Senior Advisor on 
agriculture, energy, conservation issues. You helped Vermont 
dairy farmers find consensus across the nationwide industry in 
which consensus is like transporting bullfrogs in a wheelbarrow 
and increase support for funding for conservation and forestry 
programs, fighting invasive species, like the lamprey that 
invaded Lake Champlain. You have helped rural communities get 
clean water, broadband services. You know, these are amazing 
things when you stop to think what you have done and the people 
you have worked with, three different members of this 
committee, including our late friend Paul Wellstone, and your 
in-depth knowledge is extremely important.
    So, Madam Chairwoman, as I mentioned, I have to go to a 
mark-up in another committee I serve on, Judiciary, although I 
have been told they will not start until I get there. But I 
just want to be here to say I am so pleased that you and 
Senator Lugar, and, actually, if Senator Roberts comes here, we 
are going to have a number of Chairs and former Chairs.
    Brian, I told you last night when we met privately in my 
hideaway office how proud I am of you, and I just want to 
reiterate it publicly. I have always been proud of you and I am 
glad that you are willing to take on this job.
    [The prepared statement of Senator Leahy can be found on 
page 14 in the appendix.]
    Chairwoman Stabenow. Well, thank you very much, Senator 
Leahy.
    I know that Senator Roberts will be joining us shortly and 
we will certainly turn to him when he arrives.
    Senator Lugar, you are welcome to make any comments. If 
not, we will proceed.
    Senator Lugar. I will withhold.
    Chairwoman Stabenow. Thank you very much, and I want to 
thank both Senator Leahy and Senator Lugar, who are very 
distinguished former Chairs of this committee. I am very, very 
fortunate to have a committee with so much experience, 
including a number of former Chairs. We are temporarily in this 
space. I have indicated to both of them, we will feel at home 
when their portraits are up on the wall.
    [Laughter.]
    Chairwoman Stabenow. So we will look forward to making that 
happen.
    But, Mr. Baenig, I have two things that I now need to do. 
First is to administer an oath that we have for all of the 
nominees, if you would like to stand and raise your right hand.
    Do you swear that the testimony you are about to present is 
the truth, the whole truth, and nothing but the truth, so help 
you God?
    Mr. Baenig. Yes.
    Chairwoman Stabenow. Thank you very much.
    And, secondly, do you agree that, if confirmed, you will 
appear before any duly constituted committee of Congress, if 
asked to appear?
    Mr. Baenig. Yes.
    Chairwoman Stabenow. Thank you very much.
    And again, welcome, and we would ask you to proceed with 
your testimony. As you know, we are happy to take any written 
testimony and we would ask that your verbal testimony be kept 
to five minutes. Thank you.

  TESTIMONY OF BRIAN T. BAENIG, OF THE DISTRICT OF COLUMBIA, 
  NOMINATED TO BE AN ASSISTANT SECRETARY OF AGRICULTURE, U.S. 
                   DEPARTMENT OF AGRICULTURE

    Mr. Baenig. Thank you, Madam Chairwoman. Chairwoman 
Stabenow, Ranking Member Roberts, former Chairman Senator 
Lugar, members of the committee, thank you for the opportunity 
to appear before you today as a nominee for Assistant Secretary 
for Congressional Relations at the Department of Agriculture.
    Chairman Leahy, thank you for that kind introduction. When 
you hired me nearly ten years ago, I could have never imagined 
sitting on this side of the table. Your leadership, your 
guidance, your friendship have been very important to me in my 
personal life and my professional career, so thank you very 
much.
    Madam Chairwoman, members of the committee, it is a great 
honor to be nominated by President Obama to serve in this 
position, and if confirmed, you have my commitment that I will 
work diligently to live up to the high standards and 
expectations that this committee has set and the administration 
has set. I commit to always being responsive to all of your 
questions and concerns.
    Madam Chairwoman, as you recognized, I have spent my career 
in this institution and I treasure it and I hold dear 
especially the long bipartisan traditions of this committee. As 
you know, I have worked for Senators Wellstone, Leahy, and most 
recently, Senator Lincoln on this committee. I have had the 
honor to work for a diverse set of Senators who all had the 
same passion--the same bipartisan passion--for supporting 
America's farmers, ranchers, and rural communities. I will 
bring that same commitment to work each day if I am confirmed 
for this position.
    Most recently, I have worked as a staff member of this 
committee, and I feel strongly that straightforward 
communication between the Department of Agriculture and the 
Congress is critical to the legislative process and essential 
to the position for which I am being considered today. While 
your positions on specific issues may not always match those of 
the Secretary or the President, I will always be responsive to 
your requests and respectful of your concerns and questions. 
And while I may not always have the answers you are looking for 
immediately, I will commit to each and every one of you to find 
the answers and always be fair, honest, and straightforward 
with you and your staff.
    I am keenly aware of the current budget situation that we 
all face and the tremendous obstacles that it presents to this 
committee and our country. But I believe we must always 
remember that America's farmers and ranchers and our 
agriculture sector are responsible in no small way for the 
health and strength of this great nation. Not only does 
American agriculture produce the highest and most abundant 
quality of food, feed, fiber, and fuel at affordable prices, 
but American producers preserve our environment, sustain our 
rural communities, and help drive our national economy.
    Along with Secretary Vilsack, I am committed to working 
with this committee and the House committee to ensure that the 
next farm bill retains a strong and effective safety net for 
all of American agriculture. If confirmed, I pledge to work 
closely with each of you and your staff to make all the needed 
resources available during this process. I believe that we 
share the goal of ensuring that American agriculture and our 
rural communities remain productive and competitive, and 
working together, I am confident we can accomplish that goal, 
as this committee always has, in a bipartisan fashion.
    The Department of Agriculture has an aggressive agenda to 
serve our nation's farmers, ranchers, and rural communities. 
Secretary Vilsack and the Department is focused on delivering 
results that create jobs, promote innovation in our rural 
communities. If confirmed, I look forward to helping him with 
this important work.
    Finally, Madam Chairwoman, if you would grant me a moment, 
I would like to recognize just a few people who are here today, 
Nancy Smetanka, Jayne Visser, and Dirk Visser. Thank you today 
for your support and always.
    To my mother, Linda Baenig, thank you for your love and 
guidance.
    Madam Chairwoman, Ranking Member Roberts, former Chairman 
Lugar, and the rest of the members of the committee, thank you 
for the opportunity to appear before you today. I want to 
express my gratitude to President Obama, to Secretary Vilsack, 
for the confidence in me to take on this important 
responsibility. If I have the honor of being supported by this 
committee and confirmed by the
    United States Senate, I look forward to building a strong 
working relationship with each and every one of you.
    Again, thank you for the opportunity. I look forward to 
answering any questions you may have.
    [The prepared statement of Mr. Baenig can be found on page 
16 in the appendix.]
    Chairwoman Stabenow. Well, thank you very much.
    Mr. Baenig, as Assistant Secretary for Congressional 
Relations, you and your staff will serve as key conduits 
between the USDA and the Congress, and it will be your job, of 
course, to maintain open communication, transparency, and this 
is particularly important as we go into writing of the farm 
bill, which is the critical responsibility of this committee. 
How do you plan to enhance the USDA's relationship with 
Congress and what role will you play as Assistant Secretary in 
facilitating the next farm bill?
    Mr. Baenig. Madam Chairwoman, thank you for that question. 
As you recognized, I have spent some time here and understand 
the importance of this role in providing timely communication, 
advance notice when appropriate and possible, and always 
providing the technical resources needed during the farm bill 
drafting process. I remember the long nights and the many 
weekends that you spent over the course of a two-year period in 
writing the 2008 farm bill and I strongly feel the USDA needs 
to be a partner in that effort to always provide the technical 
resources and the guidance that this committee seeks.
    So, if confirmed for this position, you have my commitment 
to provide what you need and to provide the answers to your 
questions and effectively communicate the administration's 
positions.
    Chairwoman Stabenow. Thank you. When we talk about writing 
the farm bill, this is going to be a challenging time, as we 
all know, and we are very much focused on how we can do things 
better, how we can consolidate, streamline from the standpoint 
of our farmers, how we can stretch dollars farther. That is 
going to be a very important part of what we are doing, and it 
is going to be vital that the Assistant Secretary is proficient 
in navigating all the various programs within the Department 
because it is a large, complex, important agency.
    I wonder if you might speak to what experience you have had 
specifically that have familiarized yourself with the various 
agencies within the USDA. How has the experience of working on 
past farm bills prepared you for engaging in this farm bill 
process, which we all know is going to take everybody working 
together and is going to be very challenging for us?
    Mr. Baenig. Thank you, Madam Chairwoman. You are correct. 
This is--clearly, the budget environment is going to make this 
farm bill as difficult as any in the past. I do want to just 
take the opportunity to recognize that agriculture, as a 
sector, has already made some significant contributions to the 
deficit reduction last year, with the significant reduction in 
the Crop Insurance Program. I think that is important to note, 
and I know you have and other members of this committee have, 
also.
    In terms of navigating the Department, it is a large 
institution, 17 agencies, seven mission areas. I have spent the 
last three months getting to know each and every one of those 
mission area heads. During my time here, I had direct 
communication with the agency staff. So I feel like, given my 
time here, I have a firm grasp on where the Department is.
    Again, I think it is going to be essential as we look to 
the farm bill to make sure that this committee has the right 
people available, and I think that is important. I think it is 
important to make career staff available to this committee who 
have the technical resources and knowledge to help you in the 
drafting process.
    Chairwoman Stabenow. Thank you. And then, finally, we are 
talking a lot about accountability because we have to make 
right decisions, and as I said, stretch dollars as far as 
possible and bring accountability. We are going to be asked to 
do more with less, as we all know. Could you speak a little bit 
about how you, in your role, can help us carry out the 
oversight responsibilities, ensuring accountability within 
USDA, and any challenges that you would foresee in that 
process.
    Mr. Baenig. Thank you, Madam Chairwoman. As you know, 
Secretary Vilsack has instituted an aggressive examination of 
the Department, looking at ways to create new efficiencies, and 
I look forward to the opportunity to support him in that role 
and communicate that effectively with you.
    He has also--Secretary Vilsack, in terms of accountability, 
has also made aggressive efforts in the area of civil rights, 
and if confirmed to this position, I look forward to helping 
him implement many of the recommendations the Department has 
received from an independent audit.
    In addition, I think we need to be cognizant of doing more 
with less in these times of budget constraints. I look forward 
to providing all that information to the committee as the 
Department makes its next steps.
    Chairwoman Stabenow. Thank you very much.
    Senator Lugar.
    Senator Lugar. Well, thank you very much, Madam Chairman.
    Mr. Baenig, this is just an off-the-top-of-the-head 
suggestion, but I ask it because you are knowledgeable about 
this committee as well as the Department. I have found that I 
find much more that is occurring in the Department of 
Agriculture through commercial newsletters, some that I take 
because as a corn and soybean farmer, I am interested in the 
market every day, so this is very informative. At the same 
time, usually the letters go on to point out what is happening 
in the Department, what Secretary Vilsack really thinks about 
things, or the various other people.
    Now, your job, as you have expressed--and we have all been 
talking about--is to convey information back and forth to the 
committee from the Department and likewise our views. I have 
often wondered if, in fact, the person in your position 
composed a newsletter, maybe not each day, but every third or 
fourth day, which really gave a pretty good idea of what is on 
the mind of the Secretary, what new initiatives he has or 
things that he believes we ought to be informed about. Simply 
so that this information is shared with all the members of the 
committee and our staffs. That would probably be true of our 
counterparts in the House of Representatives, likewise.
    It would seem to me that we would be on the same page more 
likely, or know our disagreements early on, and then have 
opportunities for correspondence, or with you as our emissary, 
to get the word back. This looks good or it does not look so 
good, or, in fact, we have delight that the Department is doing 
a lot of things affirmatively. I am one who admires what 
Secretary Vilsack has been achieving, and he has many chores 
that he cannot really express to us day by day.
    But I just simply take advantage of this hearing to throw 
out that suggestion. If, in fact, such a piece of paper, or 
maybe two or three pages or what have you, would come with some 
regularity, I would be an avid reader and, likewise, would 
have, I think, a better idea, honestly, of what is going on in 
the Department than I might be receiving through the commercial 
agricultural newsletters that I am reading. Do you have any 
initial reaction to that idea?
    Mr. Baenig. Well, Senator Lugar, I think it is an excellent 
suggestion. I think the more we can do in terms of paper 
communication and face-to-face meetings with the committee or 
the committee staff, I think it is an excellent suggestion, and 
if confirmed, I would be happy to commit to see if we can get 
that done on a regular basis. I think it is an excellent way to 
let the committee know what the various 17 agencies are doing 
on a daily basis. I think it would be extremely helpful.
    Senator Lugar. Likewise, to the extent that you have this 
information before any of the rest of us--this is a very 
dynamic period in American agriculture in terms of land values, 
quite apart from crop prices. And there is a change in many 
States of the income status of farmers which is very 
encouraging. It really has not been seen during many of the 
years in which we have been deliberating in this committee. 
Just to have those facts, and likewise, how this is affecting 
the people to whom we are exporting around the globe, how our 
crop prices are affecting both their demand as well as some of 
the constraints.
    We have a feeling, in other words that even as we talk 
about our farm bill, we are in the midst, if not of a world 
food crisis, something approaching that, in which the supplies 
of food throughout this earth and the number of people who are 
enhancing their diets plus maybe the increasing number of 
people, is putting strains on this, and that not just Arab 
Spring, with young people out in the square, but back in the 
Hustings where small children, elderly people, and what have 
you are in severe need. This is likely to persist for some 
time.
    So some better knowledge on the part of our committee, our 
staff, day by day--we can pick up some of this in the regular 
press, and I do not fault that coverage worldwide. But there 
may be some perspectives from the Department standpoint of how 
the Secretary or others view what our responsibility ought to 
be so that our farm bill debate is not purely a parochial 
affair, but one that really encompasses the world in which we 
live and the interaction of our exports or lack of that with 
other countries.
    Thank you very much, Madam Chairman.
    Chairwoman Stabenow. Well, thank you very much, Senator 
Lugar.
    I am going to turn this over to my friend and Ranking 
Member, Senator Roberts, for any both opening comments you 
would like to make as well as questions. We say good morning.

    HON. PAT ROBERTS, U.S. SENATOR FROM THE STATE OF KANSAS

    Senator Roberts. Good morning, Madam Chairwoman, and thank 
you for holding this hearing. I think I am going to submit my 
opening comments for the record in the interest of time.
    If you could talk to the D.C. patrolman who evidently gave 
somebody a ticket in the tunnel on the way to the Capitol, it 
would be very helpful. I know you have a lot of influence 
there.
    [Laughter.]
    Chairwoman Stabenow. I wonder if the Assistant Secretary 
would have any control over this. It might help his 
confirmation.
    Senator Roberts. It was not by the USDA building at all----
    [Laughter.]
    Senator Roberts. --but at any rate, I do not understand 
that. That is beside the point. At any rate, I think I will 
just make my statement part of the record and we can proceed.
    [The prepared statement of Senator Roberts can be found on 
page 12 in the appendix.]
    Chairwoman Stabenow. And we have gone through our 
questions.
    Senator Roberts. Oh, I see. Well, I think that as I go over 
the questions here that staff has outlined for me, they are 
very repetitive of the questions that we had. We had a very 
good visit yesterday, and I think more especially with the 
experience that he has had with two members, one of which I am 
extremely fond of, and we talked about that, and then we talked 
about what would happen when we get into a tough situation and 
how we would work that out, more especially his relationship 
with other agencies, EPA, et cetera, et cetera. So I think I am 
going to simply have these submitted for the record.
    At the same time, he answered all the questions to my 
satisfaction, so thank you for coming in this morning.
    Mr. Baenig. Thank you, Ranking Member.
    Chairwoman Stabenow. All right. Well, let me say again, 
congratulations on being nominated. In my judgment, you have 
proved to be a thoughtful, competent candidate for this 
position and I look forward to supporting you for this 
position. I think the Assistant Secretary for Congressional 
Relations for the USDA is a position very, very important to 
our committee, very important to our success as we move forward 
in working with the Department in tackling and writing a farm 
bill that works for everyone.
    We know we have a difficult challenge coming up, but we 
know with your help, we will be able to get this done. And so 
let me again thank you for being here.
    Mr. Baenig. Thank you very much.
    Chairwoman Stabenow. Thank you. And I would ask our first 
panel for our specialty crop portion of the meeting to come 
forward.
    Senator Roberts. Madam Chairman, if I could----
    Chairwoman Stabenow. Yes.
    Senator Roberts. If I could be recognized just for a 
moment, I would like to take a few moments at this particular 
time to wander, if you will, or get into another pasture from 
regular order to recognize a long-term staffer that we have had 
here----
    Chairwoman Stabenow. Yes, please.
    Senator Roberts. --and public servant that will be retiring 
as of Friday.
    August 5 will be Dave Johnson's last day, unfortunately--
fortunately for him, perhaps, but unfortunately for us--as a 
Republican staffer on the Senate
    Committee on Agriculture, Nutrition, and Forestry. It will 
also be the end of a 23-year career in public service, most of 
that right here on this committee.
    Dave has served me as Ranking Member since March. He came 
on board and helped us get going and running, organized. He 
previously served as both the Chief Republican Counsel and 
Deputy Staff Director of this committee. His service includes 
working for Chairman Lugar from 1987 to 1991, again from 1994 
to 2003. He then served Chairman Cochran from 2003 to 2005, and 
then finally Chairman Chambliss from 2005 to 2007. That is a 
lot of chairmen. From 2007 to 2008, he served then-Secretary of 
Agriculture Mike Johanns as Deputy Chief of Staff at the 
Department. He then moved to the Commodity Futures Trading 
Commission, where he served until we convinced him to come back 
and help us get up and running this past spring.
    Madam Chairwoman, Dave's record speaks for itself, but I am 
not sure some understand just how valuable his service has been 
to this committee and agriculture and nutrition policy. Anybody 
that knows Dave can tell you his first love has been nutrition 
policy. He has worked on numerous child nutrition bills and the 
nutrition title in no less than four farm bills. I also know 
that if you sit down and visit with him, he would probably tell 
you that one of his proudest moments was the work he did on the 
1996 Welfare Reform Act, for which a lot of people take credit, 
but Dave should, as well.
    He has been a straight shooter. He gives you the answers 
you need to hear. But one of his greatest strengths is 
reminding you of the things you have not considered and need to 
think about, the law of unintended effects. He has been a 
tremendous mentor to young staff on both sides of the aisle. He 
was often the first stop many of them made when looking for 
advice on how to learn the ropes of the committee.
    Finally, Dave's attention to detail and proofing proposed 
legislation is absolutely legendary. If you are scrubbing a 
bill and making sure it is done right, he is the set of eyes 
that you want on it. He is the scrubber. As a member of my 
staff, I was once told by a former member of the Senate 
Parliamentarian's Office that a farm bill David helped write 
and scrub was among the best written bills we have ever seen 
come through the Senate.
    Madam Chairwoman, that pretty well sums it up in regards to 
Dave's service to this committee. Dave, as a former bucket-
toter myself--staffer--thank you for your years of service to 
our country, the Senate, the members of this committee, and our 
constituents. You have been a true public servant. We all wish 
you only the best as you head home to Indiana. Job well done.
    Thank you, Madam Chairwoman.
    Chairwoman Stabenow. Well, thank you very much, Senator 
Roberts, and we congratulate Dave and we thank him, and I think 
he deserves a round of applause.
    [Applause.]
    Senator Roberts. Thanks.
    Chairwoman Stabenow. Well, thank you so much for those 
comments. You know, it is important to remember, even in the 
context of challenging, rough and tumble times that we are in 
right now, that we have wonderful staff that serve us in the 
Department and both sides of the aisle who have come for the 
right reasons, who care deeply about our country, who care 
deeply about agriculture and nutrition, families, getting this 
right, people who work with us every day that I think we do not 
say thank you enough to, who are the reason that we are able to 
move forward and get things done, because we have smart people 
with us that care, and that is one of the reasons I am very 
confident we will be able to proceed with the farm bill, and as 
we have in the Agriculture Committee over and over again showed 
that folks can work together and get things done. I know that 
that is what we are committed to doing, so thank you very much, 
Senator Roberts.
    [Whereupon, at 10:07 a.m., the committee proceeded to other 
business.]
      
=======================================================================


                            A P P E N D I X

                             JULY 28, 2011



      
=======================================================================

[GRAPHIC] [TIFF OMITTED] T1634.001

[GRAPHIC] [TIFF OMITTED] T1634.002

[GRAPHIC] [TIFF OMITTED] T1634.003

[GRAPHIC] [TIFF OMITTED] T1634.004

[GRAPHIC] [TIFF OMITTED] T1634.005

[GRAPHIC] [TIFF OMITTED] T1634.006

      
=======================================================================


                   DOCUMENTS SUBMITTED FOR THE RECORD

                             JULY 28, 2011



      
=======================================================================

[GRAPHIC] [TIFF OMITTED] T1634.007

[GRAPHIC] [TIFF OMITTED] T1634.008

      
=======================================================================


                         QUESTIONS AND ANSWERS

                             JULY 28, 2011



      
=======================================================================

[GRAPHIC] [TIFF OMITTED] T1634.009

[GRAPHIC] [TIFF OMITTED] T1634.010

[GRAPHIC] [TIFF OMITTED] T1634.011

[GRAPHIC] [TIFF OMITTED] T1634.012


</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
